                                                NA TIONAL SCIENCE FOUNDA nON
                                                 OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESnGAnONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109050026                                                                   Page 1 of 1



         The complainant! alleged that the subject2 did not complete proposed research, failed to provide
         reproducible results, and was frequently absent from the research facility3 during an NSF
         fellowship award. 4    After contacting the subject, the subject provided both a report
         demonstrating the completion of substantive work under the NSF award and an apology to the
         complainant.

         Accordingly, this case is clOsed.




         2


         4




NSF OlG Fonn 2 (11102)
